The Library of Congress
Office of the Inspector General




                                  Library-wide

            New Hiring Process and System:
       Project Management And Contracting
                     Improvements Needed


                    Audit Report No. 2001-IT-305
                                  February 2002
UNITED STATES GOVERNMENT                                LIBRARY OF CONGRESS
Memorandum                                                Office of the Inspector General


TO:           James H. Billington                                        February 12, 2002
              Librarian of Congress

FROM:         Karl W. Schornagel
              Inspector General

SUBJECT:      New Hiring Process and System: Project Management and
              Contracting Improvements Needed, Audit Report 2001-IT-305


Attached is the final audit report on the Library's implementation of the new hiring process and
automated system that you requested in your 30 July 2001 memorandum. We found that progress
has been made in transitioning to the new process and system and that the number of applicants
per vacancy has increased significantly. However, due to the lack of a formal project management
framework and corresponding management controls, implementation has been slow, resulting in a
substantial backlog in filling critical Library job vacancies.

The report contains a series of recommendations designed to help control remaining
implementation and operations tasks and better prepare for future implementation efforts. We
recommend using specific project management tools to control work and provide management
with relevant, current, and accurate information to oversee project activities, and improve
support to Library users responsible for hiring staff.

We emphasize the need to plan and execute a post-implementation evaluation to determine if
process or system changes are needed and whether alternative systems need to be explored. Due to
the lead time necessary to plan and evaluate the process and system, and the time that may be
needed for market research and procurement, we urge the Library to maintain a tight schedule for
completing these tasks.

Please provide a consolidated corrective action plan within 30 days that addresses each
recommendation, including an implementation schedule (see LCR1519-1, Section 4). We will
follow up on implementation of the recommendations in the spring. We appreciate the
cooperative spirit shown by Library staff and look forward to working with you to improve the
Library's hiring capability.
cc:   Executive Committee:
              Deputy Librarian and Chairman
              Director, Congressional Research Service
              Chief of Staff
              Associate Librarian for Strategic Initiatives
              Associate Librarian for Library Services
              Register of Copyrights and Associate Librarian for Copyright Services
              Law Librarian
      Director, Human Resources Services
      Project Manager (Director, Office of Planning, Management, and Evaluation)
      General Counsel
      Director, Integrated Support Services
The Library of Congress                                                     Audit Report No. 2001-1T-305
Office ofthe Inspector General                                                            February 2002

                                       TABLE OF CONTENTS


 EXECUTIVE SUMMARY                                                                                         i

 INTRODUCTION                                                                                              1

 BACKGROUND                                                                                            2

 OBJECTIVES, SCOPE, AND METHODOLOGY                                                                    3

 FINDINGS AND RECOMMENDATIONS                                                                          5

 I.     Establish a Project Management Framework and Apply to the Current ADS and
        Amended Appendix B Hiring Process                                                               7
        A.    Assign a Project Manager                                                                  8
        B.    Clearly Define the Project and Team Member Roles and Responsibilities                    10
        C.    Develop and Deploy Project Plans                                                         11
        D.    Involve Primary Users and Technical Experts in Requirements Definition and
              Implementation                                                                           13
        E.    Clearly Document Executive Committee Project Approval                                    15
        F.    Develop and Execute a Post-Implementation Review Plan                                    16


 II.    Issue Documented Hiring Procedures                                                             18

 III.   Centralize and Document the Help Desk                                                         20

 IV.    Use the AT Configuration Change Request Process                                               21

 V.     Negotiate More Favorable Contract Terms and Prices for Future Personnel
        Subscription Services                                                                         23
        A.    Negotiate Contracts to Protect the Library's Interests and Represent Best
              Value                                                                                   23
        B.    Conduct Legal Sufficiency Reviews Prior to Contract Award                               26
        C.     Document Source Selection Analyses                                                     27
        D.     Purchase Only Necessary FTE Subscription Levels                                        28

 VI.    Better Support Business Case Analyses                                                          29

 APPENDIXES: A.           Consolidated List of Recommendations                                         31
             B.           Acronyms Used in This Report                                                 35
             C.           Formal Response to the Draft Report - Human Resources Services ..            36
             D.           Formal Response to the Draft Report - Project Manager                        38
             E.           Formal Response to the Draft Report - Congressional Research
                          Service                                                                      42
                   F.     Formal Response to the Draft Report - Chief of Staff                         53
The Library of Congress                                                Audit Report No. 2001-IT-305
Office of the Inspector General                                                      February 2002

                                  EXECUTIVE SUMMARY

The January 2001 Amended Appendix B settlement agreement to the Cook Case required the
Library of Congress to have a content-valid automated hiring system operational by 1 March
2001. The Amended Appendix B covers professional, administrative, and supervisory technical
positions and eliminates minimum qualifications; time-in-grade requirements; and written
knowledge, skills, and abilities to determine whether applicants meet required qualifications.
The Library is implementing this automated process by deploying Avue Technologies’ Avue
Digital Services (ADS), an on-line subscription service/system for classifying and staffing vacant
positions.

The Office of the Inspector General (OIG) audited ADS implementation based on the
Librarian’s 30 July 2001 request. We found that the Library significantly underestimated the
risk and complexity of reengineering and automating its hiring process. Progress is being made,
but posting and filling vacancy announcements has been slow. In December 2001, the Library
requested authorization from Congress to realign $14.8 million in FY 2002 funding from
salaries and benefits to other contractual services. The funds are needed to pay for contractors
to perform Library operational duties because vacancies are not being filled fast enough to
sustain the workforce.

There are a variety of contributing factors. The Library did not use a project management
framework, concepts, and tools to monitor implementation progress and operations. The
Library did not thoroughly evaluate ADS as a workable system before choosing the subscription
service. After choosing ADS, the Library did not use detailed operating procedures and a
centralized function for dealing with internal systemic questions and problems. Also, we found
that the Library did not develop short- and long-term contractual strategies to ensure that data
rights were protected and that the hiring capability would be uninterrupted. Human Resources
Services (HRS) and the Office of the General Counsel did not explore the operating
consequences of ADS in the context of Amended Appendix B. HRS did not clearly
communicate requirements changes to the system vendor. In addition, the Library did not
develop a post-implementation plan to determine if the new hiring process meets the Library’s
needs, or if ADS successfully and efficiently automates the new process.

We briefed the Executive Committee on 27 August 2001 and recommended that it appoint a
project manager as soon as possible. In addition, we issued interim guidance on 29 August
recommending specific project manager authorities and responsibilities. In a subsequent
memorandum on 5 September we recommended contract clauses, negotiation strategies, and
specific Library staff needed for subsequent negotiations for subscription hiring services. We
also outlined in a 21 September memorandum project management-related issues that needed
immediate attention.

While the Library has assigned a project manager, additional action is required to ensure
successful reengineering, implementation, and management of the new hiring process and
                                                i
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

automated system. Specifically, the Project Manager needs to establish project plans and use
tools to monitor the reengineering and implementation process and report significant events and
progress to the Executive Committee. The Project Manager should also facilitate the issuance
of detailed operating procedures and ensure that a centralized “Help Desk” is expanded to assist
Library users. The Contracting Officer’s Technical Representative should use the Avue
Technologies’ configuration change request process to document and submit system
modifications to the vendor. The Project Manager should conduct a post-implementation
review and report to the Executive Committee as soon as possible whether the current hiring
system and process are functioning properly and meet the Library’s needs. Finally, the Library
should base all future contracting decisions for hiring-related services on sound business case
analyses and include in the process representatives with expertise in contracting, human
resources, information technology, and law.

We issued a preliminary draft report on 29 October 2001 to the Director of HRS and the Project
Manager. The Director of HRS provided a response to the preliminary draft report on 15
November 2001. A final draft report was issued on 30 November. We received responses to
the draft report from the Director of HRS, the Associate Librarian for Strategic Initiatives, the
Director of the Congressional Research Service (CRS), the Project Manager, the Chief of Staff,
the General Counsel, and the Director of Integrated Support Services.

The HRS Director disagreed with our findings and recommendations; the other respondents
generally agreed with most of our findings and recommendations. Some service units
questioned the appropriateness of the Amended Appendix B. We did not address the
appropriateness of the Amended Appendix B as it was beyond the scope of our audit. Formal
responses received from HRS, CRS, the Project Manager, and the Chief of Staff are included in
this report as Appendixes C through F. The remaining service units provided informal
comments. All responses were considered in preparing the final report, and in some cases, we
modified the report accordingly. Library responses and OIG comments are included after each
recommendation beginning on page 7.

Allegations were made that service units contributed significantly to delays in implementation.
Our interviews showed that users lacked confidence in the process and system and as a result,
may have been less supportive. However, we were unable to obtain evidence to substantiate the
existence of any deliberate delayed action by the service units. The Project Manager proposes
completing a post-implementation review by 1 April 2002. It is important that the Project
Manager adheres to this schedule so that there is sufficient time to evaluate and contract for
alternative solutions, if needed. It is also important that the Executive Committee receive
frequent status reports addressing implementation/operational issues and the Library’s progress
in filling vacancies.




                                                ii
The Library of Congress                                                    Audit Report No. 2001-IT-305
Office of the Inspector General                                                          February 2002

                                        INTRODUCTION

The Library of Congress is implementing a new hiring process and automated system for
professional, administrative, and supervisory technical positions. The new process features
content-valid classification and staffing functions. To be content-valid, classification and
staffing must be traceable to specific tasks in position descriptions validated by subject matter
experts (SME). Classification consists of determining the tasks of the position and performing
an analysis of the tasks to determine the grade and series of the position, resulting in a position
description. Staffing consists of preparing and posting a vacancy announcement, generating
applicant questionnaires, ranking the applicants, interviewing the applicants, and selecting an
applicant for the position. SMEs are individuals who are knowledgeable of the tasks performed
by the position and are the same or higher-grade level of the position. SME panels and
representatives from the Library’s Human Resources Services (HRS) review and approve
position descriptions and job analysis documentation, rankings, and interview questions. SME
panels conduct structured interviews and score applicants selected for interviews. Selecting
officials make final selection decisions.

The Library is automating its content-valid classification and staffing process by deploying Avue
Technologies’ (AT) Avue Digital Services (ADS). ADS is a subscription service providing the
Library internet access to software modules and databases of work tasks performed by a
particular position that can be classified into a position description and ultimately staffed (filled)
on-line. By ADS being a subscription service, AT owns and maintains both the software and
database and provides assurance that the subscribed modules conform to the various laws and
regulations that apply to the Library. ADS consists of four modules: Classification, Staffing,
Workforce Management, and Workers Compensation. AT claims that the ADS Classification
and Staffing modules provide on-line classification, job analysis, crediting plans, vacancy
announcements, interview questions, performance plans, and individual development plans. Job
analysis is the process of determining the criteria against which applicants will be assessed.
Crediting plans document how applicants will be rated.

According to AT, the Workforce Management module provides expert analysis, risk assessment,
documentation, and on-line training in compensation administration, performance management,
appraisals, employee and career development, employee and labor relations, and equal
employment opportunity and affirmative action. The workers compensation module provides a
practical guide to management officials, union representatives, and injured workers for handling
virtually all Federal Employees Compensation Act claims that arise in the course of federal
employment. The workforce management and workers compensation modules are currently not
utilized at the Library.

ADS is covered by an Indefinite Delivery Indefinite Quantity contract with AT issued by the
Veterans Administration. The Library pays 2.5 percent of the contract value to the General
Services Administration to be the Library’s contracting officer. The Library’s contract with AT
was signed September 2000 and includes 5 option years. Total contract value with options is




                                                  1
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

$2,659,375. The annual subscription rate is based on the Library’s budgeted full time equivalent
(FTE) positions, which falls into ADS’ 3,000 - 5,000 service range. For an additional $500,000,
two contractors provided additional support services to assist the Library in announcing and
filling positions last summer and fall. All library positions are covered by the subscription,
however, ADS will be utilized by the Library only for professional, administrative, and
supervisory technical positions.

HRS initially handled project management and Contracting Officer’s Technical Representative
(COTR) authorities and responsibilities for the ADS implementation. As of October 2001 the
Director, Office of Planning, Management, and Evaluation has been assigned project
management and COTR authority.

                                       BACKGROUND

In November 1975 some employees filed a third-party administrative complaint alleging
discrimination in the Library’s hiring practices. The Library denied the complaint in January
1982. Subsequently, the employees filed a lawsuit (Cook v. Boorstin) against the Library in the
U.S. District Court for the District of Columbia. Counsel for the Library and the plaintiffs were
in settlement negotiations on and off since 1982. A final settlement agreement was reached in
September 1995. In July 1998 Cook plaintiffs filed a motion to request that “the Court appoint a
Receiver within the personnel department of the Library of Congress to implement and to
oversee the Library’s timely compliance with its obligations under the Settlement Agreement and
Consent Decree until a four year oversight period has expired.” In September 1998 the court
ruled for the plaintiffs that for 18 months the Library engaged in a pattern of delay and
obstruction with respect to complying with several important non-monetary provisions of the
settlement agreement. In March 1999 the Court ordered the parties to engage in negotiations.
An amended settlement agreement was reached in December 2000. In January 2001 the parties
agreed and the court adopted a new selection process described in the Amended Appendix B (to
the settlement) to be used by the Library and was to be fully implemented no later than 1 March
2001.

The January 2001 Amended Appendix B portion of the settlement agreement requires the
Library to have a content-valid automated hiring system. The Amended Appendix B covers
professional, administrative, and supervisory technical positions and eliminates minimum
qualifications; time-in-grade requirements; and written knowledge, skills, and abilities (KSAs) to
determine whether applicants meet required qualifications. The Amended Appendix B
significantly changes the Library’s position management process, which involves the structuring
of positions, functions, and organizations in a manner that optimizes productivity, efficiency, and
organizational effectiveness.

In August 1999 the Library’s Hiring Improvement Process (HIP) team, under the Human
Resources 21 (HR21) Steering Committee, recommended the Library automate the hiring
process. HR21 is a human resources reengineering project managed by the HR21 Steering




                                                2
The Library of Congress                                                Audit Report No. 2001-IT-305
Office of the Inspector General                                                      February 2002

Committee. The HR21 Steering Committee was established by the Library’s Executive
Committee (EC) to oversee the entire project and ensure that the overall human resources
transformation achieves outlined goals and objectives. The HR21 Steering Committee consists
of managers from service units. The HIP team is a subcommittee of the HR21 Steering
Committee and is chartered to: identify opportunities to improve the hiring process, focus on
removing barriers that prevent maximizing the use of existing infrastructure, and recommend
options based on desired performance targets and critical success factors.

The HIP team reviewed four products: Resumix, HR Manager, Quick Hire, and ADS. HRS
gave the EC an overview of ADS and recommended the Library purchase the service based on
the limited time to implement the automated system requirements of the Amended Appendix B.
The EC approved the purchase of ADS in September 2000.

                        OBJECTIVES, SCOPE, AND METHODOLOGY

As the Librarian requested on 30 July 2001, we conducted a programmatic audit of the ADS and
Amended Appendix B implementation process. Our review included an evaluation of the current
implementation efforts by HRS, AT, and Library staff. Further, the review included the current
ADS contract. Our specific objectives included:

   Determining the effectiveness of the Library’s project management processes;
   Verifying that the system development process included defining user requirements,
    processing system change requests, and documenting and preparing system tests consistent
    with Library regulations and industry best practices;
   Determining the appropriateness of existing AT contract terms; and
   Verifying that the contracting process including the development of the statement of work,
    evaluations of vendor proposals, evaluation of cost benefit and technical analyses, and the
    vendor selection process, was consistent with Library and federal regulations.

The scope of our review included evaluating activities associated with the implementation of the
Amended Appendix B and ADS. We did not evaluate whether the Amended Appendix B
supported the Library’s mission. We focused on activities during FY 2001 prior to the
appointment of a project manager. We conducted our fieldwork from August to November
2001. Specific audit steps included:

   Reviewing the business case analysis (BCA) prepared by HRS;
   Reviewing EC and HR 21 meeting minutes;
   Interviewing Library staff involved with the Amended Appendix B and ADS implementation
    including representatives from the Office of the General Counsel (OGC), Library Services,
    Strategic Initiatives, Congressional Research Service, Copyright Office, Law Library,
    Information Technology Services, HRS, the Library’s Contracting Officer, and the COTR;
   Reviewing written procedures and ADS and HRS instructions;




                                                3
The Library of Congress                                                Audit Report No. 2001-IT-305
Office of the Inspector General                                                      February 2002

   Performing on-line tests of the ADS classification and system administration functions;
   Reviewing the system change request and “Help Desk” processes;
   Obtaining ADS end-user comments;
   Reviewing the ADS Implementation Guide;
   Evaluating existing contract terms including contract pricing;
   Evaluating the source selection process;
   Interviewing representatives from outside vendors including AT and Kelly Anderson &
    Associates (KA); and
   Interviewing representatives of other federal agencies that implemented ADS.

We conducted our audit in accordance with generally accepted government auditing standards.
We evaluated Library written procedures and actual practices against criteria documented in
Library of Congress regulations (LCR), General Accounting Office (GAO) guidance, and
industry standards and best business practices maintained by the Information System Audit and
Control Association (ISACA). Specific criteria used to evaluate audit evidence included:

   LCR1614-2, Acquisition of Supplies and Services;
   LCR 212-2, Functions and Organization of Information Technology Services, Office of the
    Librarian;
   Contracts Services instruction No. 99-03, Contract Review Board Procedures;
   Financial Services Directorate (FSD) Directive 01-01, Cost and Benefits Alternatives
    Analysis for Planning, Programming, and Budgeting of Large Capital Assets;
   GAO Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1),
    November 1999;
   GAO Guide for Evaluating Federal Agencies’ IT Investment Decision-making
    (GAO/AIMD-10.1.13), February 1997;
   Federal Acquisition Regulations (FAR) 15.3 – Source Selection; and
   ISACA Control Objectives for Information Technology (CobIT), July 2000.




                                                4
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

                             FINDINGS AND RECOMMENDATIONS

While implementation of the Amended Appendix B hiring process and ADS has been difficult,
the Library has been able to post and close a number of vacancy announcements as shown in
Table 1. From May to September 2001, 94 vacancies were posted with an average of 65
applicants per announcement. Although the Library required the use of ADS to post vacancy
announcements beginning 1 March 2001, service units did not begin posting vacancy
announcements under ADS until May 2001 because of the number of vacancies already in
progress under the old selection process. If the vacancies under the old selection process were
not completed by 1 June 2001, the vacancies were canceled and re-posted under ADS. In FY
2001, 128 positions were filled using the old selection process and 25 using ADS and the new
hiring process for a total of 153 positions.

Table 2 shows progress is also being made in certifying position descriptions. HRS certified a
significant number of positions in August as part of a concerted effort to begin filling the 120
positions targeted for the AT support services contract including permanent positions
appropriated for the National Digital Library in FY 2001. The 54 position descriptions certified
in August can be used throughout the year and include common Library positions such as
Librarian, Supervisory Librarian, Copyright Specialist, and Supervisory Copyright Specialist.
Because of the ability to use the common position descriptions to post multiple vacancy
announcements, the need to create new position descriptions should decline or level out over
time and will only require annual re-certifications.


                                    Vacancy Summary Statistics
                                       (As of September 30)
                Vacancy Status      Quantity Posted    Average Number of Applicants
                Canceled                  18                                   12.00
                Closed                    66                                   77.62
                Currently Open            10                                   78.80
                Total                     94                                   6,127
                Overall Average                                                65.18
                                                           Source: Avue Technologies
                                             Table 1

Although the Library has progressed since 1 March 2001, there is a significant backlog of job
vacancies to fill. In December 2001 the Library requested authorization from Congress to
realign $14.8 million in FY 2002 funding from salaries and benefits to other contractual services
to hire contractors to compensate for the hiring backlog. To help the Library strengthen its
hiring capability and efficiency, several project management issues need to be addressed. The
Library needs to develop and deploy a Library-wide project management framework to guide




                                                5
The Library of Congress                                                                     Audit Report No. 2001-IT-305
Office of the Inspector General                                                                           February 2002


                                                 Position Descriptions Certified by Month
                                                        Through October 25, 2001
                                     60
   Position Descriptions Certified




                                     50

                                     40

                                     30

                                     20

                                     10

                                      0
                                          May   June             July          Aug              Sept            Oct

                                                       Table 2                        Source: HRS Classification Database


the Project Manager in overseeing implementation. The Library should use project
management tools and planning concepts to identify and resolve implementation constraints
including technical, operability, internal coordination, direction, and role definition issues. To
assist in identifying and resolving implementation constraints, the Library should develop a
project master plan, test plan, training plan, and quality assurance plan.

The Library needs to develop short- and long-term contractual strategies to ensure that the
Library’s data rights are protected, and that hiring capability is uninterrupted. Specifically, the
Library should negotiate contracts with the assistance of operations experts, OGC, and
Contracts Services. Also, the Library should evaluate the need for continuing support services
to assist in announcing and filling vacancies, and decide when unused modules will be
implemented. Further, the Library should base all decisions on analyses of cost and benefits.

The EC should base all project approvals on supportable information. The Project Manager
should immediately develop a post-implementation review plan to determine if the Library’s
hiring needs are being met, develop a contingency plan for posting and filling vacancy
announcements, and if needed, evaluate alternate systems and modifications of the hiring
process. The Project Manager should present the results of the post-implementation analysis to
the EC and the EC should decide whether to continue use of ADS or open the Library’s
requirements to competition.

The Library also needs to issue detailed operating procedures as soon as possible to document
the roles and responsibilities of the individuals participating in the hiring process and provide
specific guidance on hiring procedures. The Library should consolidate its “Help Desk”
function for all ADS and hiring questions to ensure that service units are receiving consistent




                                                                  6
The Library of Congress                                                Audit Report No. 2001-IT-305
Office of the Inspector General                                                      February 2002

and timely answers to questions. Finally, the COTR should follow the established AT system
change request process to initiate modifications to ADS.

I.      Establish a Project Management Framework and Apply to
        the Current ADS and Amended Appendix B Hiring Process

The Library does not employ a structured project management framework for its reengineering
and automation initiatives. In the absence of a framework, critical project planning and
monitoring tools to aid in implementation are not being used. Project management deficiencies
described in subsections A through F below and ADS system glitches have resulted in frustrated
users and delayed hiring.

Detailed project management guidance is found in GAO’s Guide for Evaluating Federal
Agencies’ IT Investment Decision-making (GAO/AIMD-10.1.13), February 1997, and ISACA’s
Control Objectives for Information and Related Technology (CobIT). Both guidelines encourage
documentation and use of project management techniques including:

A. Assigning a project manager;
B. Clearly defining the project and assigning responsibilities, authorities, and roles for the
   project team including designating user and management representatives to approve the work
   accomplished in each phase of a project before work on the next phase begins;
C. Designing appropriate project plans including a project master plan containing statements of
   scope, objectives, required resources, and responsibilities; a quality assurance plan; a test
   plan; and a training plan;
D. Ensuring user participation in defining requirements;
E. Obtaining project approval from senior management; and
F. Developing a plan for a post-implementation review to ascertain whether the project has
   delivered the planned benefits.

Recommendation

The EC should direct the Project Manager to develop a project management framework for the
reengineering of the hiring process and use the framework as a pilot for a Library-wide project
management framework. The project management framework should include all of the
necessary elements as specified in GAO and ISACA guidance to ensure timely and successful
completion of all Library-wide administrative projects. The framework should be documented
by 31 March 2002 and incorporated into a Library of Congress Regulation by 31 December
2002.

Library Response and OIG Comments

HRS responded that it used an established project management framework to develop the ADS
implementation plan. Specifically, HRS stated that it established a project team that met




                                                7
The Library of Congress                                                Audit Report No. 2001-IT-305
Office of the Inspector General                                                      February 2002

frequently to revise and enhance its implementation plan and provided a copy of the plan. The
Project Manager does not believe that adherence to a project management framework would
have prevented many of the problems encountered during the ADS implementation. The Project
Manager asserts that the gap between what the library expected from ADS and what the system
is designed to do would not have been resolved. The Project Manager contends that only
someone trained in gathering product requirements could have foreseen this gap. CRS generally
agreed with our recommendation but suggested that a framework be piloted before Library-wide
implementation.

We reaffirm our recommendation. It was not until after ADS was purchased that HRS developed
an implementation plan and attempted to use certain components of a project management
framework. HRS’ plan did not include several important aspects of project management such as
defining requirements; analyzing costs, benefits, and alternatives; and establishing realistic
implementation schedules. These critical steps need to be addressed before procuring systems.
While we agree with the Project Manager that having a structured framework may not have
guaranteed success, a framework would have helped in earlier identification and resolution of
problems. We agree with CRS’ suggested pilot implementation strategy and added it to the
recommendation.

A.      Assign a Project Manager

The Library did not assign a permanent Project Manager to the implementation effort, resulting
in confusion as to who had the authority to ultimately make decisions regarding the
reengineering of the position management process, which included the implementation of the
Amended Appendix B and the deployment of the automated ADS system. The absence of a
formally designated project manager with defined authorities and responsibilities contributed to
implementation delays.

At various times, different individuals acted as the project manager, including the COTR.
Interviews with Library staff indicated they were unaware of any project manager being
officially assigned but assumed that the COTR was acting as a project manager. However, the
COTR was not equipped to control implementation, lacking the appropriate written authority to
allocate resources, issue policy, and reengineer business processes. In addition, the COTR had
no formal training in project management and no practical experience in using project
management tools, such as performance indicators, to control workflow and identify and report
information to management. Finally, the COTR was only initially dedicated full time to the
project and did not have the authority to dedicate needed additional resources.

The Library did not identify, monitor, and report performance indicators to identify problems,
project status, and performance. The Library planned business process reengineering on an ad
hoc basis through a series of questions and responses to process problems. Resolving
implementation issues took considerable time as the Library did not document and sometimes
did not address internal user questions, concerns, and implementation problems, causing delays




                                                8
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

in implementing the new hiring process and ADS. Currently only a limited number of people
within the Library have sufficient knowledge of ADS to respond to user questions. In addition,
the Library had to complete vacancy announcements in progress by 1 June 2001. In an effort to
get job vacancies filled under the old process, Library users flooded HRS with vacancy
announcements. As a result, posting and filling vacancy announcements has been slow and the
Library expended an additional $500,000 for two contracts to assist managers in using the new
process and executing the Library’s FY 2001 personnel budget.

GAO’s Guide for Evaluating Federal Agencies’ IT Investment Decision-making (GAO/AIMD-
10.1.13), February 1997, recommends that a project manager be actively involved in on-going
project reviews and be responsible for making decisions about whether to continue, accelerate,
modify, or cancel a project. When briefing the EC on the preliminary results during our
fieldwork, we recommended that the Library formally designate a project manager and clearly
define authorities and responsibilities. Suggested elements of a project manager designation
letter were provided earlier to the Deputy Librarian. The EC assigned a project manager on 9
October 2001.

Recommendations

1. The Project Manager should be actively involved in project reviews. The Project Manager
   should immediately review current resource requirements and dedicate additional resources
   as necessary to ensure successful completion of the project including consideration of
   additional contract support services.

2. The Library should take steps to ensure that a project manager possessing the requisite skills
   and/or training is assigned to all future projects. This requirement should be incorporated
   into the Library of Congress Regulation recommended in Finding I.

Library Response and OIG Comments

HRS asserts that the Integrated Library System (ILS) Project Manager was assigned to manage
the ADS rollout and provided copies of HRS e-mail requesting the assignment. OGC stated that
the HRS Director was assigned as the project manager. CRS endorsed the recommendations.

Our interviews disclosed that there was no one individual assigned to be the project manager.
Review of the HRS documentation disclosed that discussions took place about assigning the ILS
Project Manager to the ADS project. However, there was no evidence that this individual was
assigned. An interview with the ILS Project Manager noted that she did not consider herself
assigned to the role. Service units thought the project manager was either the HRS Director or
the COTR. Others did not believe a project manager was assigned. It was only after ADS was
purchased that the Library considered assigning a project manager.




                                                9
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002



B.      Clearly Define the Project and Team Member Roles and Responsibilities

The Library did not clearly define the project and project team member roles and responsibilities
contributing to misunderstandings about the Library’s new position management process. Since
ADS was considered a subscription service rather than a software development project, the
Library did not establish a formal project management framework. The Library should have
identified the project as a reengineering effort because the Amended Appendix B significantly
changed human resources operations. The new process transformed the way in which position
descriptions are created, how vacancy announcements are developed and posted, and how
interview questions are derived and asked. The new process also requires that managers create
position descriptions whereas previously service unit administrative staff and/or managers
created these documents.

The Library created “Drive Teams,” composed of service unit representatives to develop system
requirements and obtain end-user input. The Drive Teams were organized into ADS functional
areas including classification, staffing, workforce management, communications, and training.
The training provided to Drive Team members, “Creating Position Documents using the ADS
Classification Module,” included service unit administrative staff. However, when the teams
were defining requirements and receiving training, administrative staff roles had not been clearly
defined. In most service units, only administrative staff received the training.

On 28 June 2001 the Deputy Librarian issued a memorandum restricting administrative staff
involvement in preparing position descriptions and performing job analyses. Library managers
found themselves responsible for functions they were not trained to perform and did not receive
the necessary training. Due to confusion as to the roles and responsibilities of both team
members and administrative staff and the lack of training, the Library could not efficiently create
position descriptions and post or fill vacancy announcements.

Best industry practices suggest that an organization’s project management framework provide
clear written statements defining the nature and scope of every project before work begins, and
that participants’ roles be clearly defined. By documenting project objectives and team member
roles and responsibilities, the Library can ensure that team members can perform their functions
efficiently.

Recommendations

1. The Project Manager should redefine the ADS implementation project as a reengineering of
   the hiring process incorporating the Amended Appendix B requirements through the
   implementation of ADS.

2. The EC, through the Project Manager, should clearly define Library-wide projects, providing
   clear written detailed statements describing the objectives and scope before work begins.
   The project definitions should identify team members, skills required for staff members




                                                10
The Library of Congress                                                  Audit Report No. 2001-IT-305
Office of the Inspector General                                                        February 2002

     assigned to the project, and authorities and responsibilities of the project team members. The
     Library should incorporate these criteria into the Library of Congress Regulation
     recommended in Finding I.

Library Response and OIG Comments

HRS believes that it established a project team and in consultation with AT, the project team
defined the Drive Teams and the number and composition of the participants. HRS intended to
train all supervisors and managers in building position descriptions through the Classification
module. Several service units subsequently decided that only administrative staff would receive
this training and would then be responsible for guiding managers and supervisors. CRS
concurred with our recommendation but suggested that there be two recommendations: one
dealing with the present project and one dealing with future projects.

HRS addresses obtaining user input through the Drive Teams after ADS was selected. The HRS
response does not recognize that user requirements and input should have been solicited before
ADS was selected and before implementation began. The HRS response does not address the
issue of confusion about Drive Team roles. HRS’ perception of roles and responsibilities may
have been clear, but the Drive Team members were confused and most participants interviewed
described Drive Teams as marginally productive. We concur with CRS’ comment and have
incorporated its suggestion into the recommendation in Funding I.

C.      Develop and Deploy Project Plans

The Library did not prepare project management plans to identify resource requirements or
monitor progress. Project management plans include: (1) a project master plan to identify
required resources, implementation phases, and project management tools; (2) a quality
assurance plan to provide for early detection of significant system and process problems; (3) a
test plan to validate that new systems operate on existing hardware and software architectures;
and (4) a training plan to identify the extent of user training needs.

Several service unit managers indicated that they were not aware of any specific master plan for
transitioning to the new hiring process and system. One of the common comments disclosed
during our interviews was that managers did not see a difference between the implementation of
the Amended Appendix B hiring process and implementation of ADS. By not making this
distinction, the Library was not able to clearly identify process concerns from the automated
system problems. Users were attributing their concerns related to how the Library was creating
and posting vacancy announcements to ADS, when their concerns were with negotiated
Appendix B requirements and interpretations of the appendix into undocumented policies and
procedures. As a result, users lacked confidence in the process and ADS implementation.

A quality assurance plan would have addressed the service unit administrative staff and
contractor role in the reengineered hiring process. Service unit administrative staff currently




                                                11
The Library of Congress                                                  Audit Report No. 2001-IT-305
Office of the Inspector General                                                        February 2002

have access only to the ADS Classification module. This module allows creation of position
descriptions on-line. However, in most service units, administrative staff have historically
reviewed the vacancy announcement and assisted the managers in modifying the KSAs within
the announcements. The current process denies the administrative staff access to the Staffing
module, which controls the creation of the vacancy announcement and KSAs. Library
management has only recently identified the specific access levels to be granted to administrative
staff.

The Library initially used the “AVUE Digital Services Implementation Guide” to help identify
and assign various roles within the organization. The implementation guide provides generic
guidance for a centralized HRS function; however, it does not take into account the unique needs
of the Library. A quality assurance plan could have detected and corrected this situation much
earlier than the approximate 11 months it took under the existing process.

A documented test plan would have ensured that the data to be validated was available, and that
each employee participating in validation tests had an adequate workstation. Interviews
disclosed that when CRS was ready to test the content of the ADS database and validate the
accuracy of job duties, no data was available. Apparently data that was input by an AT
employee for CRS could not be found in the system. To complicate matters, not all of the
managers participating in the test had adequate equipment such as a personal computer or the
proper Web browser.

Instead of a formal training plan to identify Library-specific training needs and the appropriate
level of training, the Library used the vendor’s generic implementation guide training matrix to
determine who should attend ADS training. Service unit administrative staff were trained in
creating position documents in ADS. However, the ADS training matrix did not identify the
need to train Library managers on critical position classification tasks, such as factor evaluation
system guides, grade controlling language, and percentage distribution for major tasks. Without
this training, Library managers were not adequately prepared to perform the detailed
classification tasks they were assigned.

The absence of plans contributed to delayed implementation of the new hiring process and ADS.
In order to meet the Library’s hiring goals, $500,000 was spent for additional services to help
populate the ADS database and support the hiring process. CobIT’s best industry practices
recommends that project management plans be developed to help monitor the status of projects,
identify system requirements, and identify training requirements. Use of project management
tools helps ensure that critical issues are identified and resolved and projects are completed
efficiently.

Recommendation

The Project Manager should ensure that project master, quality assurance, test, and training plans
are developed as soon as possible.




                                                12
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

Library Response and OIG Comments

HRS responded that it prepared a project master plan and provided its Project Implementation
Plan as evidence. HRS also responded that it did not envision administrative staff having a role
in the new process and therefore did not need administrative staff participation in the process.
Further, HRS does not understand CRS’ comment on the unavailability of content data during
testing. HRS contends CRS confirmed that all its positions were in the ADS database. CRS
endorsed the recommendation.

The Associate Librarian for Strategic Initiatives suggests another contributing factor to delays:
“Interpretation of what is allowable in implementing AVUE is a moving target in the context of
Amended Appendix B requirements. HRS relies on OGC and a part-time legal consultant to
make day-to-day determinations on specific actions. The legal ramifications, interpretation of
specific steps and procedures, are being addressed on an “as you go” basis. The consequence is
costly delays, inconsistencies on how to handle the various postings, and confusion among the
customers/hiring managers.”

HRS’ Project Implementation Plan does not include important elements found in a project master
plan. The plan provides general references to system implementation issues, but does not
address process reengineering responsibilities such as the role of Drive Teams and Library users.
It is an implementation plan, and therefore, one component of an overall master plan. As
mentioned earlier in the report, the implementation plan was created after ADS was purchased.
Typically, project plans are created before systems are selected so that schedules, staffing needs,
quality assurance mechanisms, and training needs can be considered and factored into an
agency’s requirements and used as criteria for selecting a system or service.

A quality assurance plan could have helped identify misunderstandings about administrative staff
roles earlier. Additionally, while CRS’ data now resides in the ADS database, it was not
available when CRS was initially asked to test the validity of the data. Formal test plans could
have ensured that data was available before testing began.

D.      Involve Primary Users and Technical Experts
        in Requirements Definition and Implementation

The Library did not involve users and technical experts to the extent needed to thoroughly define
the Library’s requirements to implement the Amended Appendix B and to automate the
classification and staffing functions. The HIP team recommended automating the hiring process
and reviewed four products. HRS selected ADS because it believed it was the easiest to use and
content-valid, a requirement of Appendix B. However, there were many initial technical
problems with ADS and users lost confidence in the system, contributing to delayed vacancy
announcement postings.




                                                13
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

Because ADS was defined as a subscription service, Information Technology Services (ITS) was
not involved as a technical expert in evaluating the ability of ADS to meet the Library’s needs.
Interviews with ITS personnel involved in the implementation of ADS stated their involvement
was primarily as a user not a technical specialist. The Library conducted limited testing on
system content and capacity. Had ITS participated more in the process, it could have conducted
more rigorous tests of the system on the Library’s current hardware and software architecture.
Because ADS was not thoroughly tested, initial users encountered a series of technical problems
ranging from having the wrong version of a Web browser to being disconnected from the AT
server hosting ADS. Even if ITS had been more involved in the process, the Library’s brief
implementation schedule did not allow sufficient time for testing, evaluating test results, and
correcting any ADS technical problems.

LCR 212-2, Functions and Organization of Information Technology Services, Office of the
Librarian, defines a major role of the ITS Director as the principal advisor to the Librarian, the
Deputy Librarian, and the Chief of Staff. As such, the ITS Director should be a primary team
member on all information technology-related projects that are intrinsic to the work of the
Congress, and the Library’s staff and patrons. ITS has multiple systems development groups,
each of which performs enterprise analysis, requirements analysis and project definition, detailed
systems analysis and design, software development and testing, and contractual work as it is
applied to individual projects in support of Library functions and procedures, regardless of
programming languages or project scope. Employing ITS could have identified the testing and
implementation problems and resulted in more timely resolution of issues and filling of Library
vacancies.

Recommendations

1. The Project Manager should ensure that primary users are involved in requirements
   definition and implementation.

2. The Project Manager should ensure that ITS is involved in any future automation-related
   HRS projects. ITS should be involved in developing systems requirements and testing the
   compatibility of any new systems with the existing hardware and software architecture.
   Further, ITS should be included in any future contract negotiations to provide technical
   advice.

Library Response and OIG Comments

The Project Manager responded that ITS should not be the organization fulfilling the role of
developing system requirements and negotiating contracts. HRS responded that ITS was briefed
and involved during the implementation of ADS including involvement in the HR21 Steering
Committee and briefings and discussions about automation support roles and ADS usability.
OGC states that the decision to proceed with implementation was made by the EC and HRS with
the knowledge that absent the court imposed time constraint additional time would have been




                                               14
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

taken for testing and correcting ADS technical problems. CRS suggested that we also
recommend that primary users be involved in requirements definition and implementation.

We reaffirm our original recommendation but have added the recommendation to include
primary users in requirements definition and implementation as CRS suggested. We believe that
the Project Manager misinterpreted our recommendation. We did not suggest that ITS solely
determine requirements or negotiate contracts, but rather, that it be involved as an integral team
member.

The briefings in which ITS participated occurred after ADS was procured, adding little value to
the critical task of evaluating vendor alternatives and determining implementation risk based on
the modifications needed by the Library to meet its needs. Even with the time constraints
imposed by the settlement agreement, ITS and other user participation could have significantly
improved implementation progress, user acceptance, and the overall efficiency of the Library’s
hiring process.

E.      Clearly Document Executive Committee Project Approval

The EC’s understanding and approval of the implementation of ADS was not clearly
documented. Although EC meeting minutes of 5 September 2000 document that purchase of the
ADS subscription was approved, there is no documentation stating the basis for the approval.

Interviews with EC members or their designated representatives indicate that they do not recall
approving the implementation of ADS. They recall being presented with an ADS business case
analysis. However, as discussed in Finding VI on page 30, the analysis was not supported with
factual information. Managers were also unaware that implementing ADS would significantly
change the Library’s current position management process and that the Amended Appendix B
required this process change. The process change required significant changes in how managers
develop position descriptions and post vacancy announcements.

Traditionally, service unit administrative staff and/or managers prepared position descriptions,
vacancy announcements, and had final approval over staffing tasks such as preparing and
analyzing KSAs. The new process virtually eliminated administrative staff participation by
requiring managers to create position descriptions and centralizing the staffing function in HRS.
Service unit managers thought that position descriptions would be provided to AT for input into
ADS. The Amended Appendix B stated that the Library’s current position descriptions would be
transferred to the new database. No one appeared to know that only the position duties, not the
complete position descriptions, would be included in the ADS database, and virtually all of the
duties would have to be rewritten. Senior management did not embrace the additional burden of
managers being required to be knowledgeable in position classification concepts and having to
personally search and select the job tasks required for the position. For most service units,
administative staff and/or managers performed these tasks. These tasks have consumed much
more time than anticipated by users.




                                                15
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

Best industry practices require that senior management’s understanding and approval of a project
be clearly documented. This can be done in the form of meeting minutes or approval documents
used to establish project objectives and assign staffing resources. This documentation ensures
that management fully understands the project scope and resources required for successful
completion.

Recommendation

We recommend that the EC document approval of all projects significantly impacting Library-
wide administrative functions. This approval should describe the basis for the approval (e.g. cost
and benefits analysis) and the EC’s understanding of the project scope and objectives. Further,
we recommend that the EC consider obtaining assistance from the OIG to validate the
information it relies on to make important program decisions.

Library Response and OIG Comments

HRS responded that it is inaccurate to suggest that the EC was unaware of the substantive
changes required under Amended Appendix B. HRS states that the EC was briefed on these
changes and refers to the language from the Cook Case settlement report. CRS requested
clarification of the meaning of senior management and questioned the need to have the OIG
review information relied on to make important program decisions.

We reaffirm our recommendation but have modified the language based on CRS’ comments.
The EC was not aware of the extent of changes in implementing the new hiring process and
system. As stated in our finding, the misconception as written in Amended Appendix B was that
“The automated system will have in its database the Library’s position descriptions and job
analyses.” Virtually none of the Library’s existing position descriptions and job analyses were
usable. HRS provided AT with approximately 3,200 position descriptions for current jobs.
However, most of these position descriptions dated back to 1985 and/or contained performance
standards rather than duties. As a result, most of the position descriptions provided by HRS had
to be completely redefined before vacancy announcements could be posted. This included
establishing new position descriptions, performing the corresponding job analyses, and creating
selection documents such as applicant questionnaires and KSAs. This unanticipated work has
consumed an enormous amount of Library managers’ time.

We changed the term “senior management” to “Executive Committee.” We also changed the
recommendation to make the OIG available to the EC for analysis of information rather than
suggesting our office validate all information the EC relies on to make decisions.

F.      Develop and Execute a Post-Implementation Review Plan

The Library has not developed and executed a post-implementation review plan because ADS
was described as a subscription service and not thoroughly reviewed by ITS. A post-




                                               16
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

implementation review plan includes key performance indicators such as time and cost, and
describes criteria for a “go/no-go” decision process. The plan should include determining if the
Amended Appendix B requirements as interpreted and implemented meet the Library’s hiring
needs and if not, whether the process can be improved. Without a post-implementation review
plan, it will be difficult for the Library to determine whether the Amended Appendix B and ADS
implementation was successful, whether projected benefits were achieved, and whether the
Library should continue with ADS.

Interviews with key Cook Case advisors indicated that failure of the ADS implementation was
not considered. Accordingly, contingencies and options were not considered and the Library
may be vulnerable to additional service delays or interruptions if contingencies and options are
not formally evaluated.

CobIT best industry practices suggest that a project management framework provide, as an
integral part of the project team’s activities, for the development of a plan for a post-
implementation review of every new or modified information system to ascertain whether the
project has delivered the planned benefits. By developing a detailed plan, including metrics to
measure progress and implementation effectiveness, the project manager can develop a position
on the effectiveness of the system. The Project Manager should share the results of the post-
implementation analysis with the EC so a decision can be made about continuing the use of ADS
or formally opening the Library’s requirements to competition.

Recommendations

The Project Manager should immediately develop a post-implementation review plan to include:

1. Analyzing the Library’s new hiring process and system to determine if the Library’s hiring
   needs are being met. This analysis should include reviewing HRS’ detailed operating
   procedures to determine whether the procedures sufficiently support the implementation of
   Appendix B, and a review of ADS to determine if the system sufficiently meets requirements
   outlined in the procedures. A sample of positions should be tracked through the hiring
   process and ADS from the creation of the position description to selecting candidates, and
   supplemented with interviews. The sample should include examples considered by Library
   managers as anomalies. In developing the post-implementation plan, the Project Manager
   should take care to distinguish ADS systems issues from issues related to the Library’s
   reengineered hiring process or the requirements of the Amended Appendix B. This
   evaluation should be completed by 19 December 2001.

2. Developing a contingency plan for posting and filling vacancy announcements to ensure the
   Library can continue its mission. This should be accomplished by 22 January 2002.

3. Evaluating alternative systems and alternate or modified processes if the post-implementation
   review indicates that ADS or the new hiring process are not meeting the Library’s needs.




                                                17
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

4. Detailed operating procedures (as recommended in Finding II below) should be used to
   analyze specific automated system needs. This analysis should be completed by 22 January
   2002.

Library Response and OIG Comments

HRS responded that it prepared a post-implementation review plan and provided the document
for our review. The Project Manager stated a plan will be developed and a post-implementation
review conducted, but that it would not be completed until 1 April 2002. CRS endorsed the
recommendations.

We reviewed the HRS plan, which consisted of several briefing slides. The slides represent a
proposed format, not an actual plan. HRS may have considered a post-implementation review,
but did not develop a formal plan or initiate a review. Performance metrics are mentioned in
HRS’ plan, but there is no evidence that performance metrics were or are being tracked. The
Project Manager’s comments are responsive to the recommendation. However, the Project
Manager should dedicate sufficient resources to accomplish the post-implementation review plan
as soon as possible. By delaying this process, the Library further delays filling vacancies and
runs the risk of not having sufficient time to evaluate and contract for alternative solutions, if
needed. Finally, we suggest that the Project Manager provide the EC with at least monthly status
reports identifying key performance metrics including the status of the ADS implementation, and
ADS’ success/failure in meeting the Library’s requirements.

II.     Issue Documented Hiring Procedures

The Library should issue detailed operating procedures that document the new hiring process as
soon as possible. HRS’ Merit Selection and Promotion Plan, dated 6 June 2001 outlines high
level procedures to implement Amended Appendix B, however, there are no detailed procedures
that explain how the hiring process works using ADS or the roles of the administrative staff.

The absence of detailed operating procedures results in users making mistakes and having to ask
questions about the process. Further, the lack of written procedures and resulting
misunderstanding of roles and responsibilities between various Library service unit
administrative staff, OGC, and HRS has also prevented the new hiring process and ADS from
being fully embraced and implemented. Service unit administrative staff currently have access
only to the ADS Classification module. This module allows the administrative staff to create
position descriptions. However, administrative staff have historically been involved in
reviewing the vacancy announcements and modifying the KSAs within the announcements. The
current process denies the administrative staff access to the Staffing module, which controls the
creation of the vacancy announcements and KSAs. This change in administrative staff roles was
not clearly communicated to the service units and has only recently been defined. Documenting
the process initially could have brought this issue to management’s attention sooner so that the
issue could have been resolved early in the implementation process.




                                               18
The Library of Congress                                                  Audit Report No. 2001-IT-305
Office of the Inspector General                                                        February 2002

The Standards for Internal Controls in the Federal Government (GAO/AIMD-00-21.3.1) states:
“Internal controls and all transactions and other significant events need to be clearly documented,
and the documentation should be readily available for examination. The documentation should
appear in management directives, administrative policies, or operating manuals and may be in
paper or electronic form. All documentation and records should be properly managed and
maintained.”

The GAO guidance also recommends that an agency clearly define key areas of authority and
responsibility for operating activities, reporting relationships, and authorization protocols. For
example, Library procedures should document in detail the responsibilities and authority of the
participants in the hiring process such as HRS staff, SMEs, and the service unit administrative
staff.

Recommendation

HRS should develop detailed operating procedures as soon as possible covering the new hiring
process and use of ADS. The procedures should be approved by OGC and delineate HRS staff,
SME, manager, and service unit administrative staff functions and explain every step in the
position management process including the flow of information and all reviews and approvals.
HRS needs to update the standard procedures as actual policies and practices change and
communicate the changes to users expeditiously.

Library Response and OIG Comments

HRS responded that the Library of Congress Merit Selection and Promotion Plan dated 6 June
2001 contained detailed operating procedures. The Project Manager concurs with the
recommendation and suggests that HRS should be tasked with brokering a master document for
“the application parameters and requirements of Appendix B.” Once this document is created
and approved, the Project Manager suggests that service units create their own supplemental
procedures. OGC responded that service units were to document their unique hiring procedures
as part of the AT support services contract. Immediately following the AT support services
contract, project coordinators were to work towards creating standard operating procedures to be
used Library-wide. CRS generally agreed with the recommendation.

The Merit Selection and Promotion Plan is a high-level policy guide for implementing the new
selection process under Amended Appendix B. The plan describes the responsibilities of HRS,
SMEs, selecting officials, and applicants, and explains each phase of the hiring process including
documentation and record keeping. However, the plan does not contain enough detailed
information to eliminate the need for users to ask policy and procedural questions on basic
functions that managers are to perform, or eliminate confusion among users.

Detailed operating procedures should explain who in HRS could perform system overrides to
change applicant scores and when these changes are allowed, how the referral lists are to be




                                                19
The Library of Congress                                                  Audit Report No. 2001-IT-305
Office of the Inspector General                                                        February 2002

generated, how system changes are communicated to human resources specialists and users, and
most importantly, the basic principles for writing job duties, position descriptions, applicant
questionnaires, and performing job analysis. The Project Manager’s comments are responsive to
our recommendation and we suggest that he begin this process with HRS immediately. Further,
we suggest that draft procedures and data accumulated under the AT support services contract be
reviewed and used to the extent possible to develop the procedures. Amended Appendix B
requirements should serve as the basis or outline for the procedures.

III.    Centralize and Document the Help Desk

While HRS has established a “Help Desk” to respond to and track applicants’ problems, it has
not established a similar capability for problems related to internal use of the classification and
Staffing modules. Users having questions on the Classification module are referred to the first
available HRS employee. There are numerous complaints that applicants and managers are
receiving contradictory information in response to a multitude of questions about how to use the
ADS and the new hiring process. By not having a centralized database to refer to, the HRS
employee may have to research issues that have already been resolved by another employee or
provide an answer that contradicts prior answers to similar questions. By documenting user
questions in a central location, HRS can establish consistent answers about common procedural
or system problems, identify system problems requiring AT intervention, and identify needs for
user training and modifications to the detailed operating procedures.

Best industry practices suggest defining and implementing a problem management system to
ensure that all operational events which are not part of the standard operation (incidents,
problems, and errors) are quickly recorded, analyzed, and resolved. The lack of a comprehensive
Help Desk process stems from the absence of a structured project management framework for
managing the revised hiring process and ADS implementation. Project management criteria
includes the need to identify, document, address, and follow up on all user concerns and to
employ tools to control workflow and assign responsibility within HRS for responding to user
questions.

Recommendations

1. HRS should establish a Help Desk function that documents and tracks internal user questions
   for all ADS modules. This Help Desk function should be centralized and utilize a
   spreadsheet or database that is accessible to all HRS staff so that all issues are documented
   and addressed in one location. Individuals assigned to the Help Desk should have sufficient
   knowledge and training to provide timely answers. Further, the Help Desk process should be
   described in the detailed operating procedures.

2. The COTR for the ADS contract should chair an ADS users group to discuss and prioritize
   user problems. The COTR should also provide a listserve to document identified problems,
   the status of solving the problems, and solutions.




                                                20
The Library of Congress                                                  Audit Report No. 2001-IT-305
Office of the Inspector General                                                        February 2002

Library Response and OIG Comments

HRS responded that it identified a help strategy in its implementation plan that included a Help
Desk for applicants, briefings on the on-line system, and assistance through the Library’s
Internal University. HRS concurs on the need to document and follow up on user questions and
concerns, but believes a listserve or user group would be a better vehicle for addressing user
concerns. The Project Manager concurs with the recommendation. However, the Project
Manager believes that a Help Desk should be designed and implemented by the project
management team. The Project Manager contends that not all potential Help Desk questions
could or should be answered by HRS and proposes routing customers and Library employees
with questions via a menu driven system to the appropriate person to answer the question,
whether they are in HRS, or in another service unit. The Library’s Web site was offered as a
possible solution. CRS suggests a forum to discuss and track user problems.

The Project Manager’s suggestion is responsive to our recommendation. The project
management team should begin work on its proposed solution as soon as possible. Further, the
proposed solution should take advantage of existing Library Help Desk functions such as those
used by ITS. Based on CRS’ response, we added the recommendation that the COTR chair an
ADS users group to evaluate and resolve user problems.

IV.      Use the AT Configuration Change Request Process

HRS is not documenting all ADS change requests in AT’s change request system. Although
HRS experienced some difficulty with accessing the on-line change request system initially,
changes should have been communicated in writing nonetheless. Without this process, there is
little assurance that Library requirements are communicated to AT and that needed changes to
ADS will be made. This could result in additional delays in ADS implementation.

During our review, HRS used informal discussions with AT in lieu of AT’s formal systems
change request process to initiate a significant software change. The EC determined that the
service unit administrative staff would have update capabilities to the following functions in the
ADS Staffing module:

     Draft Vacancy Announcement
     Crediting Plan
     Job Analysis Worksheet
     Applicant Questionnaire
     Interview Questions
     Benchmark Anchors




                                                21
The Library of Congress                                                Audit Report No. 2001-IT-305
Office of the Inspector General                                                      February 2002

Currently, ADS does not allow administrative staff this level of access. ADS allows access,
including access to applicant specific data, only to employees assigned to the human resources
specialist role. ADS requires a software change to support this level of access.

During an ADS Classification and Staffing module training session attended by administrative
staff, an AT representative stated that he would submit a system change request to explore the
possibility of adding an additional user access role. HRS believed that since the AT
representative stated he would submit the requested change, no formal change request was
required. Since no formal change request was prepared and submitted to AT, it was not formally
tracked and monitored.

On 1 October 2001 the Deputy Librarian issued a memorandum requesting the Acting Head of
Contracts to initiate discussions with AT to obtain the necessary changes to ADS. Based on
additional discussion with the Acting Head of Contracts, it was decided that HRS would
formally request the required change in writing via the AT system change request process. With
a written request, AT would be required to formally approve or deny the request. If approved,
AT would make the change at no charge to the Library. HRS was contacted and asked to
provide a status on the written change request. There still is no written change request in AT’s
system communicating the required change. Delay in requesting and implementing this change
diminishes the usefulness of the administrative staff training because the knowledge learned is
not being used, and it impedes progress in the operational use of ADS and the hiring process.

The Standards for Internal Controls in the Federal Government (GAO/AIMD-00-21.3.1) states:
“Application system development and maintenance control provides the structure for safely
developing new systems and modifying existing systems. Included are documentation
requirements; authorizations for undertaking projects; and reviews, testing, and approvals of
development and modification activities before placing systems into operation.”

Recommendation

We recommend that the Library document administrative staff access level requirements in AT’s
configuration management system.

Library Response and OIG Comments

HRS acknowledged that it often experienced problems accessing the AT change request system.
In order to document requests, however, HRS stated that it consistently utilized e-mail and
informed the vendor of requirements and provided a list of system change requests. The Project
Manager concurs with the finding and states that HRS should not oversee the change request
process. The Project Manager suggests that an individual be tasked with evaluating and
prioritizing ADS technical requirements, and a separate individual be assigned to evaluate
content-related changes. The Project Manager further stated that HRS does not have sufficient




                                               22
The Library of Congress                                                  Audit Report No. 2001-IT-305
Office of the Inspector General                                                        February 2002

staff and related skills to perform these functions. CRS generally concurred with the
recommendation.

While the AT automated change request system was not fully operational, there is a documented
manual process that HRS should have followed. Only by using a documented AT change
request process can the Library ensure that its requests will be acknowledged and acted upon by
AT. The Project Manager’s comments are responsive to the recommendations. Following the
Project Manager’s recommendation, we suggest that the Library designate separate technical
and content representatives to document, prioritize, track, and follow up on required system
changes.

V.       Negotiate More Favorable Contract Terms and
         Prices for Future Personnel Subscription Services

The Library’s best interests were not served during contract negotiations with AT. For example,
the Library purchased a module that was not deployed. The Library did not include clauses in
the AT subscription contract to protect the Library’s data rights and access. Since the Library
did not document the source selection process, we are unable to determine whether the Library
chose the contractor who could provide the best value. Also, the Library is possibly paying more
for subscription services than needed because it negotiated a higher level of full time equivalent
(FTE) service than the maximum number of positions subject to the new hiring process.

A.       Negotiate Contracts to Protect the Library’s Interests and Represent Best Value

HRS exceeded its authority by conducting negotiations with AT between July 2000 and
September 2000 without an authorized contracting officer. There was no evidence that HRS
attempted to save money or involve in-house experts, such as ITS, in contract negotiations.
Negotiations resulted in the following unfavorable conditions:

        The Library purchased a Workforce Management module in both FY 2001 and FY 2002
         for approximately $82,500 per year after discounts. The workforce module was not
         deployed in FY 2001, has not been used thus far in FY 2002, and is not scheduled to be
         used. Certain service units decided not to implement the module until the Classification
         and Staffing modules were fully operational, therefore, implementation was deferred.
         Prior to signing the contract, deferral of the Workforce Management module was
         discussed, but not decided.

        The Library signed an initial purchase on 28 September 2000 for $46,250 after discounts
         and excluding the initialization fees, for a one month subscription. However, 28
         September 2000 was a Thursday and the following day represented the only remaining
         day in the fiscal year that the contractor could have worked at the Library. Moreover, the




                                                 23
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

       Library received little benefit from the subscription service, which was not available
        during September 2000. The second contract took effect on 1 October 2000 and the full
        year subscription prices were paid. HRS stated that awarding the contract in FY 2000
        was necessary to obtain large vendor discounts. However, we confirmed that similar
        discounts were offered by the vendor in FY 2001.

       On 2 August 2001, the General Services Administration (GSA) signed an additional
        support services contract with AT on behalf of the Library utilizing labor rates and terms
        that were included in the Veterans Administration contract. The statement of work was
        very similar to the one used for the National Digital Library contract issued to Kelly
        Anderson & Associates (KA) for similar support services. Although AT had greater
        inherent knowledge of the software, the vendor charged the Library $136 per labor hour
        and $40,800 in airfare and per diem. KA charged $73 per hour and had no airfare or per
        diem charges. Because the AT contract contained a restrictive consulting clause, KA did
        not have direct access to the ADS system and was therefore somewhat limited in its
        support. The limitation necessitated paying higher fees for AT support services.

The lead HRS representative did not possess the qualified experience in negotiations, contracts,
or information technology issues that were essential to represent the Library on this contract.
Library officials were led to believe that this was a GSA schedule contract and the Library
received a GSA schedule price. The EC was also incorrectly informed that AT was a GSA
schedule contractor. Under the schedules program, GSA enters into contracts with commercial
firms to provide supplies and services at stated prices for given periods of time. Contracts are
placed directly with the schedule contractor. However, this was not a GSA schedule contract
and AT is not on the GSA schedule for the subscription service. The GSA contracting officer
was merely engaged to sign a task order contract against the Veterans Administration’s AT
contract on behalf of the Library. Knowledge of AT’s actual GSA status should have alerted
the Library to the importance and need to negotiate the price for subscription services.

Based on the misinformation about AT’s contract status with GSA and the action to sign the
contract prior to year-end, the Library’s contracting officer did not follow Library contracting
policies. Specifically, LCR 1614-2 and Contracts Services instruction 99-03 were not followed
for the AT subscription and support services contracts. Even though the contracts with AT took
the form of a procurement through GSA, in accordance with LCR 1614-2, the subscription
contract required management concurrence with the contracting officer's action or
recommendation for an award including option years because it was over $1 million. Review
should have been obtained from OGC; the Head of Contracts; the Deputy Librarian of
Congress; and the Librarian of Congress or his designee. The support services contract required
only the concurrence of the Head of Contracts and OGC.

Contracts Services instruction No. 99-03 requires that government-wide contracts exceeding
$100,000 be approved by the Library’s Contracts Review Board (CRB). Based on the large role
played by HRS and its limited contracting experience, a CRB review could have been an




                                                24
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

effective mechanism to ensure more favorable terms and include protective clauses. The
instruction states, “The CRB shall constitute a management/quality review level…to ensure
compliance with prevailing laws, rules, regulations and Library of Congress policies…” On other
CRB contract reviews, contracting officers have been directed to seek improved cost and pricing
assistance. In this case, the CRB was never presented the contract and therefore never had the
opportunity to protect the Library’s interests.

Recommendations

1. The Library should negotiate contracts with the assistance of technical experts, OGC, the
   Project Manager, and Contracts Services.

2. The COTR should be issued a Letter of Delegation describing the ‘authorities and duties’ and
   limitations of the position.

3. The Library should decide if and when the Workforce Management and Workers
   Compensation modules will be implemented. This decision should be made as soon as
   possible to coincide with the evaluation of current contract services and the new hiring
   process. If the Library exercises the FY 2003 contract option with AT, and if a decision is
   reached to delay the implementation beyond the 30 September 2002 expiration of the current
   option, the Library should negotiate reduced payment for these modules.

Library Response and OIG Comments

HRS responded that the Library had to pay the subscription prior to initialization and that
payment of the one month subscription covers each year of the total subscription. HRS also
asserts that other agencies do not receive the discounts that the Library obtained and that the KA
contract was not for the same services as the AT support services contract. HRS states that it
advised the National Digital Library about access restriction to ADS before the KA statement of
work was developed. HRS also comments that the HR21 Steering Committee approved the
purchase of the Workforce Management module and that it has been tested and is ready to
deploy.

The Project Manager states “Effective contract negotiation would require the person to be
familiar with the process of vetting such options against other market options and internal build
options, the cost of each and the appropriate and accurate balance between systems costs and
service costs required for success. This expertise does not currently exist in the Library.” CRS
concurs with the recommendations.

Our discussions with other agencies disclosed that they were able to negotiate similar discounts
in FY 2001. Therefore, the Library obtained no unique advantage by paying the one month
subscription fee. HRS’ assertions about the KA contract are unsupported. Our comparison of
the statements of work for the AT and KA contracts disclosed that they provided virtually the




                                                25
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

same services regardless of when it was determined that KA could not access ADS. Finally,
HRS’ response that the Workforce Management module is ready to deploy does not address the
finding. Our concern is that the Library is paying for unused services. The Library should either
deploy the services or not incur the charges.

We disagree with the Project Manager’s comments. We recommend that individuals with a
broad range of skills be involved in the evaluation and negotiation of proposals and contracts.
There are individuals within the Library that possess information technology skills, and others
that possess contracting skills. The OIG is available to provide financial analysis guidance.
With the participation of these skill sets, it is possible to protect the Library’s interests.

B.      Conduct Legal Sufficiency Reviews Prior to Contract Award

The AT contract includes clauses that are not in the best interest of the Library and omits a
standard contract clause addressing source-code access. One clause restricts access to the
database to Library employees. The Master Subscription Agreement attachment to the contract
states, “Avue Digital Services may be used only by members of the Covered User Community
and only for the Subscriber’s own internal business purposes…” The covered user community
includes only those users who are employees of the subscriber.

There is other language in the contract that is vague about data ownership. For example, it is
unclear whether the Library has access to internally created data such as position descriptions.
Lastly, the contract does not address source-code rights that would allow the Library access to
the source-code in the event that AT discontinues business operations. A source-code clause is
normally included in information technology contracts.

The contract language has negatively impacted the Library in a variety of ways. The Library
may not have access to the vast database of Library-specific job duties in the event the contract
expires, is not renewed, or is terminated, and the source-code may not be available from AT to
continue operations if AT were to cease operations. Additionally, the scope of work on the
existing KA consulting contract had to be narrowed without a contract price change after it was
discovered that KA did not have access to the database. Without an unlikely consultant access
waiver from AT, any future HRS consulting or support services contracts will restrict access to
the database and therefore limit the value of these contracts.

These clauses were not reviewed for legal sufficiency because Contracts Services did not provide
the contract to OGC as required by LCR 1614-2 prior to contract ratification.

Recommendation

We recommend that OGC; the Head of Contracts; the Deputy Librarian of Congress; and the
Librarian of Congress or his designee review all contract awards as prescribed in LCR 1614-2.




                                                26
The Library of Congress                                                   Audit Report No. 2001-IT-305
Office of the Inspector General                                                         February 2002

Library Response And OIG Comments

CRS concurred with our recommendation. None of the other responses addressed this finding.

C.      Document Contractor Source Selection Analyses

The Library selected AT as the vendor to automate the Library’s hiring process without a formal
technical or cost analysis comparing the capabilities of competing vendors. Although HRS
received presentations from various vendors prior to contract award, the Library selected AT
without use of a documented analysis or rating methodology. The contracting officer and ITS
representatives were not materially involved in the analysis or source selection. Additionally,
there was no evidence that other government agencies were contacted to provide substantive
information regarding AT’s past performance. By not formally analyzing the capabilities and
past performance of the prospective vendors, the Library may not have selected the vendor
offering the best value.

HRS did not believe it was necessary to prepare a detailed analysis because AT was the only
vendor capable of complying with the Amended Appendix B and the required 120-day
implementation period. Contributing to the lack of an analysis was the exclusion of the
contracting officer and ITS from the selection process. Interviews with ITS personnel disclosed
that ITS involvement in the implementation process was from a user perspective, not a technical
perspective. Further, AT claimed ADS was a subscription service with minimal implementation
risk and little modification.

Contracts Services and ITS may have provided valuable assistance to HRS representatives.
Contracting officers are trained in source selection procedures, and information technology
experts are trained in information technology implementation risks. ITS could have provided
insight as to the maturity of the software code and thoroughly tested ADS on the Library’s
hardware and software platform before a selection was made.

The objective of source selection is to select the proposal that represents the best value. A
proposal evaluation should include an assessment of the proposals and the offeror’s ability to
perform the prospective contract services successfully. FAR 15.305(a) states that an agency
shall evaluate competitive proposals and assess their relative qualities solely on the factors
specified in the solicitation. The relative strengths, deficiencies, significant weaknesses, and
risks supporting proposal evaluation should be documented in the contract file.

HRS did not comply with the following FAR citations:

    15.303 (a) “The contracting officer is designated as the source selection authority” and, “(b)
     (6) the source selection authority shall select the source or sources whose proposal is the best
     value to the Government.”




                                                  27
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

    15.308 “The source selection decision shall be documented, and the documentation shall
     include the rationale for any business judgments and tradeoffs made or relied on by the
     source selection authority, including benefits associated with additional costs.”

The exclusion of the contracting officer from the source selection process is also contrary to The
Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1) requiring
separation of duties. The lack of separation was created when HRS, in its capacity as the COTR,
also performed the duties of the contracting officer. Without a trained contracting officer,
effective checks and balances did not exist and increased the risk that undetected errors,
irregularities, or wrongful acts could occur.

Recommendation

A Library contracting officer must make all future Library source selection decisions with the
assistance of the service units and other specialists, as needed. For example, ITS should be
consulted if the acquisition involves information technology.

Library Response and OIG Comments

HRS replied that AT was the only vendor that could meet the needs of the Library and therefore
was a sole-source provider. HRS contends that the OIG was not privy to the Cook Case
negotiations, which mandated a specific functionality, and that ITS, the Library’s contracting
officer, and other users were involved in the process. HRS further states that it made every effort
to obtain the best value for the Library. CRS concurred with the recommendation.

We commend HRS for its efforts to obtain best value for the Library, however, HRS comments
are not responsive to the finding and recommendation. While the settlement agreement defined
some functionality of the system, the agreement did not specify which vendor to select. Further,
even in a sole-source selection, the basis for the selection must be documented and only
individuals with sufficient contracting knowledge should be performing contracting actions.
Finally, user participation, and specifically the technical meetings with ITS did not occur until
after AT was selected as the vendor.

D.      Purchase Only Necessary FTE Subscription Levels

The Library purchased the subscription service at higher FTE levels than necessary. The Library
paid AT at the 3,000 to 5,000 FTE level, however, the 0 to 3,000 FTE level may have been more
appropriate because the Library has approximately 2,625 FTEs that are serviced by the ADS
system. The technical, clerical, and police positions totaling approximately 1,600 FTEs are
processed by other personnel systems and are not included in the Amended Appendix B.




                                                28
The Library of Congress                                                Audit Report No. 2001-IT-305
Office of the Inspector General                                                      February 2002

Approximately $176,000 of savings may have been achieved based on the lower FTE level if
negotiations were conducted for FY 2001 and FY 2002 that resulted in the purchase of the lower
FTE level. The Library negotiator was not aware that there were different prices for different
FTE levels and therefore did not attempt to negotiate more favorable pricing.

The Library’s contracting officer assumed the best price was received because he had
erroneously been informed by the COTR that AT was on the GSA schedule and the Library
obtained the only price offered. The Library may have obtained better prices had Library and
Contracts Services policies been followed. LCR 1614-2 requires concurrence with the
contracting officer’s decisions by Library officials. Contracts Services instruction No. 99-03
provides for a management quality review by the CRB to ensure compliance with prevailing
laws, rules, regulations, and Library of Congress policies.

Recommendation

The Contracting Officer should include the lower FTE subscription level in the negotiation
strategy if the Library exercises future AT contract options.

Library Response and OIG Comments

CRS concurred with our recommendation. None of the other responses addressed this finding.

VI.     Better Support Business Case Analyses

A Business Case Analysis (BCA) is a tool used to summarize the results of a detailed review of
cost and benefits of various alternatives to acquiring a capital asset. BCA savings estimates
related to the Amended Appendix B hiring process automation presented to the EC on 5
September 2000 were inflated and contained unsupported information.

HRS’ BCA projected 1- and 5-year savings, based on efficiency gained in processing individual
staffing actions by implementing the AT software. Based on the BCA, we determined the HRS
labor savings attributable to the AT implementation were 45 percent and 82 percent of total HRS
labor in years 1 and 5 respectively. It is not possible to achieve these labor savings from one
aspect of the HRS function. HRS would have to eliminate 82 percent of its staff while
performing all other duties to reach this level of savings. The inflated estimates may have
influenced the EC’s decision to purchase the ADS software.

Financial Services Directorate (FSD) Directive 01-01, “Cost and Benefits Alternatives Analysis
for Planning, Programming and Budgeting of Large Capital Assets” was not in effect at the time
the BCA was prepared and presented. The directive became effective in the Library’s FY 2003
planning, programming, and budgeting cycle. The directive includes an electronic spreadsheet
that offers a structured approach for developing and evaluating various options for solving a
business process problem and developing an implementation plan for the selected solution.




                                               29
The Library of Congress                                                Audit Report No. 2001-IT-305
Office of the Inspector General                                                      February 2002

We were unable to determine why the estimated savings in the BCA were skewed but believe
that the time limitation placed on the Library for implementation of Amended Appendix B
requirements contributed to the insufficient analysis of cost and benefits.

Recommendation

The Librarian should require that future cost and benefits alternatives analyses be prepared in
accordance with FSD Directive 01-01. This directive should be supplemented with additional
guidance from GAO, such as calculation of return on investment, payback periods, segregation
of cost as recurring or non-recurring, and other specific criteria on preparation and
documentation of cost estimates. The Librarian should consider submitting sensitive or high
dollar cost and benefits alternatives analyses to the OIG for validation.

Library Response and OIG Comments

HRS responded that the thrust of the BCA was accurate and that reduced cost was not the only
argument for proceeding with the ADS procurement. HRS points to other qualitative benefits in
its presentation to the EC related to reduced cycle time, improved decision making, and the like
as the EC’s basis for selecting ADS. Specifically, HRS states that the key point conveyed
through the BCA was that the manual hiring process then in place was failing to meet current
demand, and could not possibly meet future hiring demands. However, HRS does regret the
inclusion of the cost projection slides in its presentation. The Project Manager stated that BCAs
in the future should be prepared by personnel familiar with performing this type of analysis.
CRS concurred with the recommendation but suggested the recommendation be made to the
Librarian rather than the EC.

We agree with HRS that the prior manual hiring process was not meeting the Library’s needs and
that cycle time should be faster with the new process and system. However, the BCA prepared
by HRS should have been supported in terms of quantitative and qualitative costs and benefits.
Further, our review of the EC minutes and interviews with members does not support HRS’
assertion that the EC mainly relied on the qualitative benefits described by HRS as the basis for
selecting ADS. A clearly documented and supported BCA would have given the EC better
information to base its decision. The Project Manager’s comments are responsive to the finding.
Based on CRS’ suggestion, we changed the recommendation to indicate the Librarian as the
authority for policy on conducting cost and benefits alternatives analyses.




                                               30
The Library of Congress                                                    Audit Report No. 2001-IT-305
Office of the Inspector General                                                          February 2002

                                                                                         Appendix A
                                                                                           (Page 1 of 4)

                                  Consolidated List of Recommendations

I.    Establish a Project Management Framework and Apply to the Current ADS and
      Amended Appendix B Hiring Process. The EC should direct the Project Manager to
      develop a project management framework for the reengineering of the hiring process and
      use the framework as a pilot for a Library-wide project management framework. The
      project management framework should include all of the necessary elements as specified in
      GAO and ISACA guidance to ensure timely and successful completion of all Library-wide
      administrative projects. The framework should be documented by 31 March 2002 and
      incorporated into a Library of Congress Regulation by 31 December 2002. (Pg. 7)

     A. Assign a Project Manager

      1.    The Project Manager should be actively involved in project reviews. The Project
            Manager should immediately review current resource requirements and dedicate
            additional resources as necessary to ensure successful completion of the project
            including consideration of additional contract support services. (Pg. 9)

      2.    The Library should take steps to ensure that a project manager possessing the
            requisite skills and/or training is assigned to all future projects. This requirement
            should be incorporated into the Library of Congress Regulation recommended in
            Finding I. (Pg. 9)

     B. Clearly Define the Project and Team Member Roles and Responsibilities

      1.     The Project Manager should redefine the ADS implementation project as a re-
             engineering of the hiring process incorporating the Amended Appendix B
             requirements through the implementation of ADS. (Pg. 10)

      2.     The EC, through the Project Manager, should clearly define Library-wide projects,
             providing clear written detailed statements describing the objectives and scope before
             work begins. The project definitions should identify team members, skills required
             for staff members assigned to the project, and authorities and responsibilities of the
             project team members. The Library should incorporate these criteria into the Library
             of Congress Regulation recommended in Finding I. (Pg. 11)

     C. Develop and Deploy Project Plans. The Project Manager should ensure that project
        master, quality assurance, test, and training plans are developed as soon as possible.
        (Pg. 12)




                                                  31
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

                                                                                      Appendix A
                                                                                        (Page 2 of 4)

    D. Involve Primary Users and Technical Experts
       in Requirements Definition and Implementation

      1.     The Project Manager should ensure that primary users are involved in requirements
             definition and implementation. (Pg. 14)

      2.     The Project Manager should ensure that ITS is involved in any future automation-
             related HRS projects. ITS should be involved in developing system requirements
             and testing the compatibility of any new systems with the existing hardware and
             software architecture. Further, ITS should be included in any future contract
             negotiations to provide technical advice. (Pg. 14)

    E. Clearly Document Executive Committee Project Approval. We recommend that the EC
       document approval of all projects significantly impacting Library-wide administrative
       functions. This approval should describe the basis for the approval (e.g. cost and benefits
       analysis), and the EC’s understanding of the project scope and objectives. Further, we
       recommend that the EC consider obtaining assistance from the OIG to validate the
       information it relies on to make important program decisions. (Pg. 16)

    F. Develop and Execute a Post-Implementation Review Plan. The Project Manager should
       immediately develop a post-implementation review plan to include:

      1.     Analyzing the Library’s new hiring process and system to determine if the Library’s
             hiring needs are being met. This analysis should include reviewing HRS’ detailed
             operating procedures to determine whether the procedures sufficiently support the
             implementation of Appendix B, and a review of ADS to determine if the system
             sufficiently meets requirements outlined in the procedures. A sample of positions
             should be tracked through the hiring process and ADS from the creation of the
             position description to selecting candidates, and supplemented with interviews. The
             sample should include examples considered by Library managers as anomalies. In
             developing the post-implementation plan, the Project Manager should take care to
             distinguish ADS systems issues from issues related to the Library’s reengineered
             hiring process or the requirements of the Amended Appendix B. This evaluation
             should be completed by 19 December 2001. (Pg. 17)

      2.     Developing a contingency plan for posting and filling vacancy announcements to
             ensure the Library can continue its mission. This should be accomplished by 22
             January 2002. (Pg. 17)




                                                32
The Library of Congress                                                   Audit Report No. 2001-IT-305
Office of the Inspector General                                                         February 2002

                                                                                        Appendix A
                                                                                          (Page 3 of 4)

       3.    Evaluating alternative systems and alternate or modified processes if the post-
             implementation review indicates that ADS or the new hiring process are not meeting
             the Library’s needs. Detailed operating procedures (as recommended in Finding II
             below) should be used to analyze specific automated system needs. This analysis
             should be completed by 22 January 2002. (Pg. 18)

II.    Issue Documented Hiring Procedures. HRS should develop detailed operating
       procedures as soon as possible covering the new hiring process and use of ADS. The
       procedures should be approved by OGC and delineate HRS staff, SME, manager, and
       service unit administrative staff functions and explain every step in the position
       management process including the flow of information and all reviews and approvals.
       HRS needs to update the standard procedures as actual policies and practices change and
       communicate the changes to users expeditiously. (Pg. 19)

III. Centralize and Document The Help Desk

      1. HRS should establish a Help Desk function that documents and tracks internal user
         questions for all ADS modules. This Help Desk function should be centralized and
         utilize a spreadsheet or database that is accessible to all HRS staff so that all issues are
         documented and addressed in one location. Individuals assigned to the Help Desk should
         have sufficient knowledge and training to provide timely answers. Further, the Help
         Desk process should be described in the detailed operating procedures. (Pg. 20)

      2. The COTR for the ADS contract should chair an ADS users group to discuss and
         prioritize user problems. The COTR should also provide a listserve to document
         identified problems, the status of solving the problems, and solutions. (Pg. 20)

IV. Use the AT Configuration Change Request Process. We recommend that the Library
    document administrative staff access level requirements in AT’s configuration
    management system. (Pg.22)

V.     Negotiate More Favorable Contract Terms and Prices for Future Personnel
       Subscription Services.

      A. Negotiate Contracts to Protect the Library’s Interests and Represent Best Value

         1. The Library should negotiate contracts with the assistance of technical experts, OGC,
            the Project Manager, and Contracts Services. (Pg. 25)




                                                  33
The Library of Congress                                                 Audit Report No. 2001-IT-305
Office of the Inspector General                                                       February 2002

                                                                                      Appendix A
                                                                                        (Page 4 of 4)

      2. The COTR should be issued a Letter of Delegation describing the ‘authorities and
         duties’ and limitations of the position. (Pg. 25)

       3. The Library should decide if and when the Workforce Management and Workers
          Compensation modules will be implemented. This decision should be made as soon as
          possible to coincide with the evaluation of current contract services and the new hiring
          process. If the Library exercises the FY 2003 contract option with AT, and if a
          decision is reached to delay the implementation beyond the 30 September 2002
          expiration of the current option, the Library should negotiate reduced payment for
          these modules. (Pg. 25)

    B. Conduct Legal Sufficiency Reviews Prior to Contract Award. We recommend that OGC;
       the Head of Contracts; the Deputy Librarian of Congress; and the Librarian of Congress
       or his designee review all contract awards as prescribed in LCR 1614-2. (Pg. 26)

    C. Document Contractor Source Selection Analyses. A Library contracting officer must
       make all future Library source selection decisions with the assistance of the service units
       and other specialists, as needed. For example, ITS should be consulted if the acquisition
       involves information technology. (Pg. 28)

    D. Purchase Only Necessary FTE Subscription Levels. The Contracting Officer should
       include the lower FTE subscription level in the negotiation strategy if the Library
       exercises future AT contract options. (Pg. 29)

VI. Better Support Business Case Analyses. The Librarian should require that future cost
    and benefits alternatives analyses be prepared in accordance with FSD Directive 01-01.
    This directive should be supplemented with additional guidance from GAO, such as
    calculation of return on investment, payback periods, segregation of cost as recurring or
    non-recurring, and other specific criteria on preparation and documentation of cost
    estimates. The Librarian should consider submitting sensitive or high dollar cost and
    benefits alternatives analyses to the OIG for validation. (Pg. 30)




                                                34
The Library of Congress                                          Audit Report No. 2001-IT-305
Office of the Inspector General                                                February 2002

                                                                          Appendix B

                                  Acronyms Used in This Report

ADS         AVUE Digital Services
AT          AVUE Technologies
BCA         Business Case Analysis
CobIT       Control Objectives for Information Technology
COTR        Contracting Officer’s Technical Representative
CRB         Control Review Board
CRS         Congressional Research Service
EC          Executive Committee
FAR         Federal Acquisition Regulations
FTE         Full Time Equivalent
FSD         Financial Services Directorate
FY          Fiscal Year
GAO         General Accounting Office
GSA         General Services Administration
HIP         Hiring Improvement Process
HRS         Human Resources Services
HR21        Human Resources 21 (Steering Committee)
ILS         Integrated Library System
ISACA       Information System Audit and Control Association
ITS         Information Technology Services
KA          Kelly Anderson & Associates
KSAs        Knowledge, Skills, and Abilities
LCR         Library of Congress Regulation
OGC         Office of the General Counsel
OIG         Office of the Inspector General
SME         Subject Matter Expert




                                               35
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix C
                                                      (Page 1 of 2)




                                  36
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix C
                                                      (Page 2 of 2)




                                  37
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix D
                                                      (Page 1 of 4)




                                  38
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix D
                                                       (Page 2 of 4)




                                  39
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix D
                                                       (Page 3 of 4)




                                  40
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix D
                                                       (Page 4 of 4)




                                  41
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 1 of 11)




                                  42
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 2 of 11)




                                  43
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 3 of 11)




                                  44
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 4 of 11)




                                  45
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 5 of 11)




                                  46
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 6 of 11)




                                  47
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 7 of 11)




                                  48
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 8 of 11)




                                  49
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                      (Page 9 of 11)




                                  50
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                     (Page 10 of 11)




                                  51
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix E
                                                     (Page 11 of 11)




                                  52
The Library of Congress                Audit Report No. 2001-IT-305
Office of the Inspector General                      February 2002

                                                     Appendix F




                                  53
